UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1475

RANDALL WINSLOW,
Appellant
v.
SUPREME COURT OF PENNSYLVANIA; PENNSYLVANIA BAR ASSOCIATION;
CHESTER COUNTY BAR ASSOCIATION; and WILLIAM P. MAHON

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2:19-cv-4632)
District Judge: Honorable Mitchell S. Goldberg

Submitted Pursuant to Third Circuit LAR 34.1(a)
April 13,2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the Eastern District oi Pennsylvania and was submitted pursuant to Third
Circuit L.A.R. 34.1(a) on April 13, 2021. On consideration whereof, it is now hereby
7

ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered February 13, 2020, be and the same is hereby affirmed. Costs will not be taxed.
All of the above in accordance with the opinion of this Court.
0vW
.**_*•»• / C,

2/
E:
-Bat-ed-^-

ATTEST:
WPatricias , Dodszuweit
: Jjlerk

of a forrrtalTnaftdatejdi May 25. 2021

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 20-1475

Document: 21

Page: 1

Date Filed: 05/03/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1475
RANDALL WINSLOW,
Appellant
v.
SUPREME COURT OF PENNSYLVANIA; PENNSYLVANIA BAR ASSOCIATION;
CHESTER COUNTY BAR ASSOCIATION; and WILLIAM P. MAHON
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2:19-cv-4632)
District Judge: Honorable Mitchell S. Goldberg
Submitted Pursuant to Third Circuit LAR 34.1(a)
April 13, 2021
Before: AMBRO, PORTER and SCIRICA, Circuit Judges
(Opinion filed: May 3, 2021)
OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
_____ __

Case: 20-1475

Document: 21

Page: 2

Date Filed: 05/03/2021

PER CURIAM
Randall Winslow sued the Supreme Court of Pennsylvania, two bar associations,
and a state trial judge. Winslow sought to invalidate Pennsylvania Rule of Civil
Procedure 1042.3, which requires a certificate of merit (COM) in professional
malpractice cases. Winslow claimed that his inability to afford a COM means that Rule
1042.3 creates an unconstitutional barrier to certain types of litigants and litigation.
Three defendants entered their appearances and moved to dismiss the complaint. The
District Court granted the motions based on the Rooker-Feldman1 doctrine, a
jurisdictional ground raisable in a motion under Federal Rule of Civil Procedure
12(b)(1).2 The District Court determined that Winslow was, in effect, seeking federal
court review of two state-court malpractice cases that he lost due to lack of COMs. To
support its determination, the District Court cited our decision affirming the RookerFeldman-based dismissal of Winslow’s virtually-identical-in-substance prior suit. See
Winslow v. Stevens. 632 F. App’x 721 (3d Cir. 2015) (per curiam); cf, Dist. Ct. Op. at 6
(“The Third Circuit’s ruling now acts as a collateral estoppel that binds me to conclude

1 D.C. Ct. of Anneals v. Feldman. 460 U.S. 462 (1983); Rooker v. Fid. Tr. Co., 263 U.S.
413 (1923).
2 The District Court dismissed the non-appearing, fourth defendant (the Pennsylvania Bar
Association) from suit under Federal Rule of Civil Procedure 4(m), because it was not
timely served with process.
2

Case: 20-1475

Document: 21

Page: 3

Date Filed: 05/03/2021

that Plaintiffs constitutional claim—as applied to his state lawsuit against [one of his
prior attorneys]—is barred by the Rooker-Feldman doctrine.”).
Winslow appealed. Our appellate jurisdiction is provided by 28 U.S.C. § 1291.
See Gomez v. Gov’t of V.I., 882 F.2d 733, 736 (3d Cir. 1989). We review de novo an
order granting a motion under Rule 12(b)(1) that facially attacks the District Court’s
jurisdiction. Davis v. Wells Fargo. 824 F.3d 333, 346 (3d Cir. 2016).3 And we may affirm
on any basis supported by the record. Tourscher v. McCullough. 184 F.3d 236, 240 (3d
Cir. 1999).
We have carefully reviewed Winslow’s brief, in which he argues at length that the
District Court misapplied Rooker-Feldman. Winslow’s arguments are ultimately
unavailing, for at least the three reasons that follow.
First, this Court already has determined that Rooker-Feldman bars any attempt by
Winslow to collaterally attack the adverse state court ruling, in his original malpractice
case, by way of a federal court action to invalidate Rule 1042.3. See Winslow, 632 F.
App’x at 723. To the extent that Winslow has attempted to do just that (again), the
District Court was correct to support its jurisdictional ruling by invoking the doctrine of
issue preclusion. See Burlington N. R.R. v. Hyundai Merchant Marine Co., 63 F.3d 1227,
1231-32 (3d Cir. 1995) (outlining the requirements for application of issue preclusion).

3 Winslow does not challenge on appeal the District Court’s Rule 4(m) dismissal.
3

Case: 20-1475

Document: 21

Page: 4

Date Filed: 05/03/2021

Second, it matters not that Winslow’s complaint at issue referenced a failed malpractice
action against an attorney different from the attorney whose alleged malpractice was at
issue in the prior complaint. To that separate malpractice case Rooker-Feldman applies
with equal force, using the same rationale previously employed by this Court, see
Winslow, 632 F. App’x at 723, and by the District Court below. Here too, then, issue
preclusion bars what appears to be nothing more than a request by Winslow to relitigate
the past.
Third, even if Winslow were right that there is some facet of his case that eludes
Rooker-Feldman—on the theories that he claims prospective injury or instead an injury to
the general public—it would not alter our disposition. Winslow lacks constitutional
standing to press either theory. Cf Spokeo, Inc, v. Robins. 136 S. Ct. 1540, 1547
(2016), as revised (May 24, 2016) (explaining that “the ‘irreducible constitutional
minimum’ of standing consists of three elements. The plaintiff must have (1) suffered an
injury in fact, (2) that is fairly traceable to the challenged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial decision”) (citation omitted).
Specifically, there is still “no foreseeable prospect that Rule 1042.3 will bar some
hypothetical future lawsuit [Winslow] might assert against an attorney or other licensed
professional.” Winslow. 632 F. App’x at 724,4 And Winslow cannot demonstrate

4 That we previously ruled on Winslow’s standing to challenge Rule 1042.3, based on
alleged prospective harm, is yet another basis for application of issue preclusion.
4

Case: 20-1475

Document: 21

Page: 5

Date Filed: 05/03/2021

standing by alleging that he seeks vindication for the public generally. Cf Carney v.
Adams. 141 S. Ct. 493, 499 (2020) (explaining that “a plaintiff cannot establish standing
by asserting an abstract ‘general interest common to all members of the public,’ ‘no
matter how sincere’ or ‘deeply committed’ a plaintiff is to vindicating that general
interest on behalf of the public”) (citations omitted).
Accordingly, the District Court’s judgment will be affirmed.

5

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
RANDALL P. WINSLOW,
CIVIL ACTION

Plaintiff,

NO. 19-4632

v.
SUPREME COURT OF PENNSYLVANIA,
et al..
Defendants.
ORDER

AND NOW, this 12th day of February, 2020, upon consideration of the Motion to Dismiss
by Defendants William Mahon and the Supreme Court of Pennsylvania (Doc. No. 3), the Motion to
Dismiss by Defendant Chester County Bar Association (Doc. No. 8), the Motion to Stay Discovery
by Defendant Chester County Bar Association (Doc. No. 7), and Plaintiffs Responses (Doc. Nos.
5, 9, 10), I find as follows:
Facts as Set Forth in the Complaint l
1. Plaintiff s pro se Complaint challenges the Pennsylvania requirement that a plaintiff seeking
to bring a professional malpractice action obtain a certificate of merit from another licensed
professional, pursuant to Pennsylvania Rule of Civil Procedure 1042.3. 2

l

In deciding a motion under Federal Rule of Civil Procedure, the court must accept all factual
allegations in the complaint as true, construe the complaint in the light most favorable to the
plaintiff, and determine whether, under any reasonable reading, the plaintiff may be entitled to relief.
Ativeh v. Nat’1 Fire Ins. Co. of Hartford. 742 F. Supp. 2d 591, 596 (E.D. Pa. 2010).
2

Pennsylvania Rule of Civil Procedure 1042.3 provides:
(a) In any action based upon an allegation that a licensed professional
deviated from an acceptable professional standard, the attorney for
the plaintiff, or the plaintiff if not represented, shall file with the
complaint or within sixty days after the filing of the complaint, a
certificate of merit signed by the attorney or party that either

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 2 of 7

2. Plaintiff alleges that, in 2006, he contracted with attorney Paul Rubino for assistance with a
DUI charge. (Compl. p. 1.) Attorney Rubino, however, was a “complete failure as an
attorney” and neglected to take an appeal from his conviction. (Id.) Thereafter, Plaintiff
brought a state professional malpractice action against Attorney Rubino and, in an attempt
to comply with Pennsylvania Rule of Civil Procedure 1042.3, sought to obtain a certificate
of merit. Plaintiff claims that tried everything to obtain a certificate of merit from another
attorney, but it was either too costly or his efforts were thwarted. (Id)
3. Also in connection with his DUI charge, Plaintiff hired a second lawyer, Evan Kelly, to
pursue his direct appeal. According to the Complaint, “[t]he second attorney Evan J. Kelly
. . . [was] another attorney failure.” (Id. at p.2.) Plaintiff brought another state court
professional malpractice action, this time against Attorney Kelly. Plaintiff asserts that he
contacted other lawyers for purposes of obtaining a certification of merit and, although they
agreed that Kelly was negligent, they wanted “ten thousand dollars and more for a Certificate
of Merit.” (Id)

(1) an appropriate licensed professional has supplied a written
statement that there exists a reasonable probability that the care, skill
or knowledge exercised or exhibited in the treatment, practice or work
that is the subject of the complaint, fell outside acceptable
professional standards and that such conduct was a cause in bringing
about the harm, or
(2) the claim that the defendant deviated from an acceptable
professional standard is based solely on allegations that other licensed
professionals for whom this defendant is responsible deviated from
an acceptable professional standard, or
(3) expert testimony of an appropriate licensed professional is
unnecessary for prosecution of the claim.
Pa. R. Civ. P. 1042.3.
2

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 3 of 7

4. On October 5, 2019, Plaintiff filed this federal suit against Defendants the Supreme Court
of Pennsylvania, the Chester County Bar Association, and state trial Judge William Mahon,
challenging the constitutionality and legal propriety of Pennsylvania’s certificate of merit
requirement.3
5. Defendants Supreme Court of Pennsylvania and William Mahon filed a Motion to Dismiss
all claims against them under both Federal Rule of Civil Procedure 12(b)(1) and Federal
Rule of Civil Procedure 12(b)(6). Defendant Chester County Bar Association filed a
separate Motion to Dismiss, also under both Rules.
6. As I find that I lack jurisdiction to adjudicate this matter, I focus solely on Defendants’ Rule
12(b)(1) Motions.
Standard of Review
7. A motion to dismiss under Federal Rule of Civil Procedure 12(b)(1) challenges the power
of a federal court to hear a claim or a case. Petruska v. Gannon Univ.. 462 F.3d 294, 302 (3d
Cir. 2006). When presented with a Rule 12(b)(1) motion, the plaintiff “will have the burden
of proof that jurisdiction does in fact exist.” Id at 302 n.3 (quotation omitted).
8. There are two types of Rule 12(b)(1) motions. A “facial” attack assumes that the allegations
of the complaint are true, but contends that the pleadings fail to present an action within the
court’s jurisdiction. Mortensen v. First Fed. Sav. & Loan Ass'n. 549 F.2d 884, 891 (3d Cir.
1977).
9. A “factual” attack, on the other hand, argues that, while the pleadings themselves facially
establish jurisdiction, one or more of the factual allegations is untrue, causing the case to fall

3
Plaintiff also named as a Defendant the State of Pennsylvania Bar Association, but has yet
to serve this Defendant. Given that more than ninety days has passed since the filing of the
Complaint, all claims against this Defendant are dismissed without prejudice. See Fed. R. Civ._P.
4(m) (giving ninety days to effect service).
3

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 4 of 7

outside the court’s jurisdiction. Mortensen. 549 F.2d at 891. In such a case, “no presumptive
truthfulness attaches to plaintiffs allegations” and the court must evaluate the merits of the
disputed allegations because “the trial court’s . . . very power to hear the case” is at
issue. Id With a factual attack, the Court is free to consider evidence outside the pleadings
and weigh that evidence. Petruska. 462 F.3d at 302 n.3; see also Gould Elecs.. Inc, v. U.S..
220 F.3d 169, 176 (3d Cir. 2000). “[T]he existence of disputed material facts will not
preclude the trial court from evaluating for itself the merits of jurisdictional
claims.” Petruska. 462 F.3d at 302 n.3 (quoting Mortenson. 549 F.2d at 891).
Dismissal Under the Rooker-Feldman Doctrine
10. All Defendants seek dismissal of the Complaint under the Rooker-Feldman doctrine. The
Rooker-Feldman doctrine derives from two United States Supreme Court cases which
established that federal district courts may not exercise jurisdiction over suits that are
essentially appeals from state-court judgments. Rooker v. Fid. Trust Co.. 263 U.S. 413
(1923); D.C. Court of Appeals v. Feldman. 460 U.S. 462 (1983). The doctrine “is confined
to cases . . . brought by state-court losers complaining of injuries caused by state-court
judgments rendered before the district court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon Mobil v. Saudi Basic Indus. Corp..
544 U.S. 280, 284 (2005).

11. In order to determine when the Rooker-Feldman doctrine divests a federal district of
jurisdiction to consider a plaintiffs claim, a court must find that four factors are satisfied:
“(1) the federal plaintiff lost in state court; (2) the plaintiff ‘complain[s] of injuries caused
by [the] state-court judgments;’ (3) those judgments were rendered before the federal suit
was filed; and (4) the plaintiff is inviting the district court to review and reject the state
judgments.” Great W. Mining & Miner Co. v. Fox Rothschild LLP. 615 F.3d 159, 166 (3d
4

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 5 of 7

Cir. 2010) (alterations in original). The second and fourth requirements are the key to
determining whether a federal suit presents an independent, non-barred claim. Id. Thus, it
is incumbent on the district court to “identify those federal suits that profess to complain of
injury by a third party, but actually complain of injury ‘produced by a state court judgment
and not simply ratified, acquiesced in, or left unpunished by it.’”

Id. at 167

(quoting Hoblock v. Albany Cntv. Bd. of Elections. 422 F.3d 77, 88 (2d Cir. 2005)).
12. Applying those elements here, I find that the Rooker-Feldman doctrine clearly bars
Plaintiffs challenges to the certificate of merit requirement as it applied to both (a) his
attempted civil suit against Attorney Rubino and (b) his attempted civil suit against Attorney
Kelly.
13. First, as to the claim involving Attorney Rubino, the United States Court of Appeals for the
Third Circuit—faced with the identical facts—conclusively found that Rooker-Feldman
precludes plaintiffs constitutional challenge to the certificate of merit requirement.
Specifically, in Winslow v. Stevens. No. 14-4550,2015 WL 289998 (E.D. Pa. Jan. 21,2015).
Plaintiff brought a federal civil rights action against three state court judges, alleging that
Pa. R. Civ. P. 1042.3 unconstitutionally precluded him from pursuing a professional
malpractice claim against Attorney Rubino in connection with Plaintiff s 2006 DUI arrest
and conviction.

Id. at *1. The District Court, Judge Thomas O’Neill, dismissed the

complaint under the Rooker-Feldman doctrine, finding that Plaintiff had already raised that
issue to and lost before the state trial court and Superior Court. Id. at *5.
14. The Third Circuit affirmed, holding that “[although Rooker-Feldman is a ‘narrow doctrine
that applies only in limited circumstances,’ there is no question that these four requirements
apply to [Plaintiffs] federal lawsuit.” Winslow v. Stevens. 632 F. App’x 721, 723 (3d Cir.
case was 'an

-201-5) (internal citations "omitted).
5

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 6 of 7

independent constitutional challenge that did not require direct review of the state court’s
judgment, the Third Circuit held that both the Pennsylvania trial and Superior Court
“explicitly considered and rejected Winslow’s constitutional challenge to Rule 1042.3.” Id.
The Third Circuit further found that Plaintiffs federal case sought “an improper ‘review of
the proceedings already conducted by the “lower” tribunal to determine whether it reached
its result in accordance with law’—i.e., that his case against his attorney should not have
been dismissed because Rule 1042.3 is unconstitutional.” Id.
15. The Third Circuit’s ruling now acts as a collateral estoppel that binds me to conclude that
Plaintiffs constitutional claim—as applied to his state lawsuit against Attorney Rubino—is
barred by the Rooker-Feldman doctrine. The Third Circuit case involved the same plaintiff
challenging the constitutionality of the same law under the same set of facts. The issue was
fully litigated and the Third Circuit decided, in a full and final judgment, that Plaintiffs
constitutional challenge to the certificate of merit requirement was barred by the RookerFeldman doctrine. See Burlington N. R.R. v. Hyundai Merchant Marine Co.. 63 F.3d 1227,
1231-32 (3d Cir. 1995) (holding that for collateral estoppel to apply, four elements must be
satisfied: (“1) the issue sought to be precluded [is] the same as that involved in the prior
action; (2) that issue [was] actually litigated; (3) it [was] determined by a final and valid
judgment; and (4) the determination [was] essential to the prior judgment.”) (alterations in
original) (quotations omitted).
16. Second, with respect to Plaintiffs challenge to Pa. R. Civ. P. 1042.3 as it applied to his state
suit against Attorney Kelly, I find that this claim is likewise barred by the Rooker-Feldman
doctrine. Plaintiff filed a state malpractice action against Attorney Kelly alleging that Kelly
had failed to pursue certain issues in the criminal appeal of Plaintiffs DUI conviction.
Winslow v. Goldberg. Meanix & Muth. No. 3606 EDA 2017, 2018 WL 3434233, at *1 (Pa.
6

Case 2:19-cv-04632-MSG Document 11 Filed 02/12/20 Page 7 of 7

Super. Ct. July 17, 2018). The trial court dismissed the case due to Plaintiffs failure to file
a certificate of merit. Id. Plaintiff appealed to the Pennsylvania Superior Court alleging,
like here, that Pennsylvania Rule of Civil Procedure 1042.3 violates the Pennsylvania and
United States Constitution. Id at *2. The Pennsylvania Superior Court affirmed, thereby
rejecting the constitutional challenge. Id. at *3.
17. In light of that history, it is clear that Plaintiffs constitutional challenge to the Pennsylvania
certificate of merit requirement—as applied to his state suit against Attorney Kelly—was
previously raised to the Pennsylvania state courts, which rendered a final judgment rejecting
that constitutional claim. The current action complains of “injuries” resulting from the state
court’s refusal to deem Pennsylvania Rule of Civil Procedure 1042.3 unconstitutional and
invites me to review and reject the state judgments. Under the Rooker-Feldman doctrine, I
lack jurisdiction to do so.4
WHEREFORE, it is hereby ORDERED that Defendants’ Motions to Dismiss (Doc. Nos.
3, 5) are GRANTED and the Motion to Stay Discovery (Doc. No. 7) is DENIED AS MOOT. The
Clerk of Court shall mark this case CLOSED.

BY THE COURT:

/s/Mitchell S. Goldbers________
MITCHELL S. GOLDBERG, J.

4
Defendants raise a host of other challenges to Plaintiffs claims. Given that the RookerFeldman doctrine deprives me of jurisdiction over the Complaint. I need not address those other
challenges.
7

